No. _______________

IN THE

Supreme Court of the United States
_________________________
JAMES ANTHONY MARTIN,

Petitioner
v.
COMMONWEALTH OF MASSACHUSETTS,

Respondent
_________________________
Appendix to Petition for Writ of Certiorari
to the
Supreme Judicial Court for the
Commonwealth of Massachusetts
_________________________
Counsel of Record for Petitioner
Claudia Leis Bolgen
Bolgen & Bolgen
110 Winn Street,
Suite 204
Woburn, MA 01801
(781) 938-5819
claudialb@bolgenlaw.com

Index to the Appendix
Opinion in Commonwealth v. James Anthony Martin , 484 Mass. 634, 144
N.E.3d 254 (2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a

i

Commonwealth v. Martin, 484 Mass. 634 (2020)
144 N.E.3d 254

484 Mass. 634
Supreme Judicial Court of Massachusetts,
Middlesex..

Affirmed.
Procedural Posture(s): Appellate Review; Trial or Guilt
Phase Motion or Objection; Post-Trial Hearing Motion.

COMMONWEALTH
v.
James Anthony MARTIN.

West Headnotes (14)

SJC-08768
|
Argued December 5, 2019.
|
Decided May 5, 2020.

[1]

Criminal Law
Defense Counsel

Argument and Conduct of

It was manifestly unreasonable for defense
counsel to discuss a potential witness's
anticipated testimony at murder trial in opening
statement and his motivation for giving that
testimony with the goal of influencing the
jury's first impression of the credibility of that
testimony, and thus, it constituted ineffective
assistance; the prosecutor had told the judge that
he had yet to decide whether to call the witness,
defense counsel relied on an informed guess as
to whether the witness would actually testify,
witness did not testify, and the risk of telling the
jury that he would testify and corroborate another
witness's version of events far exceeded the
benefit of influencing the jury's first impression
of the witness if he were to testify. U.S. Const.
Amend. 6.

Synopsis
Background: Defendant was convicted in the Superior
Court Department, Middlesex County, Robert A. Mulligan
and Merita A. Hopkins, JJ., of murder in the first degree.
Defendant appealed.

Holdings: The Supreme Judicial Court, Gants, C.J., held that:
[1] defense counsel's discussion during opening argument of
a potential witness's anticipated testimony was ineffective
assistance; but
[2] such ineffective assistance did not create a likelihood of a
miscarriage of justice, and thus, did not require a new trial;
[2]

[3] even if defense counsel provided ineffective assistance by
promising during opening statement to elicit from testifying
officers “how drug deals are handled,” or that “the drugs and
the money are not generally in the same place at the same
time” during a typical drug deal, and then not eliciting such
testimony, it in no way influenced the jury's verdict, and thus,
did not warrant a new trial;

Criminal Law
general

Strategy and tactics in

Where the defendant's ineffective assistance
of counsel claim is based on a tactical or
strategic decision, the test is whether the decision
was manifestly unreasonable when made; in
making this determination, an appellate court
will focus on the point in time when counsel
made the challenged strategic decision, not with
the benefit of hindsight, and decide whether
lawyers of ordinary training and skill in the
criminal law would consider the strategic or
tactical decision to be competent. U.S. Const.
Amend. 6.

[4] defense counsel's failure to visit murder defendant in jail
more than six times before trial was not ineffective assistance;
[5] trial court erred by declining defendant's request for jury
instruction on voluntary and involuntary manslaughter; but
[6] such error was not prejudicial; and
[7] trial court did not err in failing to give an instruction on
felony-murder in the second degree.

1a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Commonwealth v. Martin, 484 Mass. 634 (2020)
144 N.E.3d 254

[3]

Criminal Law
general

Strategy and tactics in
[6]

The manifestly unreasonable test for an
ineffective assistance of counsel claim is
essentially a search for rationality in counsel's
strategic decisions, taking into account all the
circumstances known or that should have been
known to counsel in the exercise of his or her
duty to provide effective representation to the
client and not whether counsel could have made
alternative choices. U.S. Const. Amend. 6.

[4]

Criminal Law
Defense Counsel

Criminal Law

Argument and Conduct of
[7]

Courts
In general; retroactive or
prospective operation
Decision of Supreme Judicial Court in
Commonwealth v. Brown, 477 Mass. 805, 81
N.E.3d 1173, in which Court limited felonymurder to its statutory role as an aggravating
element by holding that a defendant may not
be convicted of murder without proof of one
of the three prongs of malice, did not apply
retroactively. Mass. Gen. Laws Ann. ch. 265, § 1.

[8]

Homicide
Degree or classification of
manslaughter
Trial court erred by declining murder defendant's
request for jury instruction on voluntary and
involuntary manslaughter; a reasonable jury
could have credited the defendant's description
of what occurred and concluded that the killing
occurred after drug buyers displayed a gun
while they were negotiating a drug deal and the
victim either was accidentally killed during the
struggle or shot in a heat of passion arising from
reasonable provocation or sudden combat.

Examination of witnesses

Even if defense counsel provided ineffective
assistance by promising during opening
statement to elicit from testifying officers “how
drug deals are handled,” or that “the drugs and
the money are not generally in the same place
at the same time” during a typical drug deal,
and then not eliciting such testimony, it in no
way influenced the jury's verdict, and thus, did
not warrant a new trial on charge of first-degree
murder; there was no need for defense counsel
to cross-examine the police officers to elicit any
such testimony, when the fact that the shooting
occurred during what was meant to be a drug deal
was never in dispute. U.S. Const. Amend. 6.

Preparation for trial

Defense counsel's failure to visit murder
defendant in jail more than six times before
trial was not ineffective assistance; defendant
failed to articulate how his defense would have
been materially different if defense counsel
had visited him more often or been more
responsive to his attempts to contact defense
counsel, and at the close of the evidence, the
judge asked defendant if he felt satisfied with
defense counsel's representation, and defendant
answered “yes.” U.S. Const. Amend. 6.

Defense counsel's ineffective assistance in
discussing a potential witness's anticipated
testimony in opening statement at murder trial
did not create a likelihood of a miscarriage of
justice, and thus, did not require a new trial;
the overwhelming evidence at trial was that the
victim thought he was going to a drug deal, but
the defendant and his accomplice knew it was to
be a drug “rip-off” to steal the cash, i.e., an armed
robbery, and the only evidence that supported the
defense theory that the victim or his associate had
brought the firearm to the drug deal to conduct
their own drug rip-off to steal the drugs and that
the victim was killed during a struggle over the
gun came from the defendant's description of
events to his cousin. U.S. Const. Amend. 6.

[5]

Criminal Law

[9]

Homicide

Manslaughter

A manslaughter instruction is required if the
evidence, considered in the light most favorable
to a defendant, would permit a verdict of
manslaughter, rather than murder.

2a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Commonwealth v. Martin, 484 Mass. 634 (2020)
144 N.E.3d 254

[10]

intent to rob; no party requested such an
instruction or even brought it to the judge's
attention at trial, and the overwhelming evidence
was that the defendant committed an attempted
armed robbery. Mass. Gen. Laws Ann. ch. 94C,
§ 40; Mass. Gen. Laws Ann. ch. 265, § 18; Mass.
Gen. Laws Ann. ch. 269, § 10(a).

Grade or degree of offense;
Criminal Law
included offenses; punishment
Where murder defendant requested jury
instructions on voluntary and involuntary
manslaughter and objected to their absence, an
appellate court must determine whether the error
in declining the request was prejudicial.

[11]

[14]

Criminal Law
Prejudice to rights of party
as ground of review

Criminal Law
Grade or degree of offense;
included offenses; punishment
Trial court's error in improperly declining
defendant's request for a jury instruction on
voluntary and involuntary manslaughter was not
prejudicial; the judge instructed the jury that
to find defendant guilty of murder in the first
degree on the theory of felony murder they
had to find beyond a reasonable doubt that the
defendant brought the gun to the room where
the victim was waiting, and did so with the
intent to rob the victim and his associate of
the money they brought, and also instructed the
jury on the requirements to find defendant guilty
of murder in the second degree, and in view
of those instructions and the feeble evidence
supporting a finding of manslaughter, defendant
was not prejudiced by the failure to instruct
on the law governing voluntary and involuntary
manslaughter.

[13]

Grade or degree of offense

Where the felony later advanced by a defendant
as the predicate for an instruction on felonymurder in the second degree is not itself the
subject of a separate indictment, no error occurs
if the trial judge does not charge the jury on it
even though there may be sufficient evidence
supporting such a charge, at least where no party
requested such an instruction or even brought the
issue to the judge's attention at trial.

An error is not prejudicial only if the
Commonwealth can show with fair assurance
that the judgment was not substantially swayed
by it.

[12]

Criminal Law

**257 Homicide. Felony-Murder Rule. Constitutional Law,
Assistance of counsel, Retroactivity of judicial holding.
Retroactivity of Judicial Holding. Practice, Criminal, Capital
case, Assistance of counsel, Retroactivity of judicial holding,
Request for jury instructions.
INDICTMENT found and returned in the Superior Court
Department on December 14, 1976.
The case was tried before Robert A. Mulligan, J., and a motion
for a new trial, filed on February 18, 2016, was heard by
Merita A. Hopkins, J.
Attorneys and Law Firms
Claudia Leis Bolgen, Woburn, for the defendant.
Timothy Ferriter, Assistant District Attorney, for the
Commonwealth.
Present: Gants, C.J., Lenk, Gaziano, Lowy, Budd, Cypher, &
Kafker, JJ.

Killing in Commission of or
Homicide
with Intent to Commit Other Unlawful Act

Opinion

Trial court did not err in failing to give an
instruction on felony-murder in the second
degree, based on the uncharged offenses of
conspiracy to violate the drug laws, unlicensed
carrying of a firearm, and armed assault with

GANTS, C.J.

3a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Commonwealth v. Martin, 484 Mass. 634 (2020)
144 N.E.3d 254

*635 On the evening of September 9, 1976, the defendant,
James Anthony Martin, attempted to steal the cash that
Richard Paulsen and his older brother, Edward, brought
to purchase drugs from Gordon Kent Brown in Brown's
apartment in Cambridge. In doing so, the defendant shot

purchase from Brown took place outside Symphony Hall in
Boston. The victim accompanied Richard, who paid cash to
Brown in exchange for the drugs. As testified to by Richard,
the transaction went “very smoothly” and was a “friendly”
interaction.

and killed Edward 1 with a single gunshot in the chest. The
defendant then fled to Canada, where he was apprehended late
in 1999. On May 10, 2001, a Superior Court jury found the
defendant guilty of murder in the first degree on the theory of
felony-murder. He subsequently moved for a new trial, which
motion was denied by a judge other than the trial judge, who
had retired. We consolidated the defendant's direct appeal
from his conviction with his appeal from the denial of the
motion for a new trial.

Richard's second purchase from Brown took place at Brown's
apartment on the second floor of a three-story house in
Cambridge. The victim again accompanied Richard to the
transaction, and in the living room of the apartment, Brown
handed Richard the drugs in exchange for cash. During
these first two transactions, Richard purchased an amount of
marijuana for $150 and one pound of hashish for $900. 2
For the third purchase, the victim arranged for Richard to
buy one kilogram of hashish from Brown for $1,600 at
Brown's apartment. On September 9, 1976, the victim and
Richard arrived at the apartment between 9 P.M. and 9:30
P.M. Richard carried with him a box with a scale inside to
weigh the hashish and $1,600 for the purchase. When they
entered the apartment, Brown appeared to be agitated and
uneasy, which was completely different from his “happy-golucky” demeanor during the first two transactions. Brown told
Richard and the victim that the person bringing the drugs had
not yet arrived. Brown said he was going to step out and buy
some beer but would be right back.

The defendant makes three arguments on appeal. First, he
contends that his motion for a new trial was wrongly denied
because he was deprived of his constitutional right to the
effective assistance of counsel, especially in light of strategic
errors his attorney made in his opening statement, which
resulted in a substantial likelihood of a miscarriage of justice.
Second, the defendant claims that we should extend the reach
of our holding in Commonwealth v. Brown, 477 Mass. 805,
807, 81 N.E.3d 1173 (2017), cert. denied, ––– U.S. ––––, 139
S. Ct. 54, 202 L.Ed.2d 41 (2018), to his case, where the appeal
was pending when Brown was decided, even **258 though
we limited that holding to cases where trial commenced after
the date of the opinion, which would exclude this case. Third,
the defendant argues that the trial judge committed prejudicial
error when he declined the defendant's request that the jury
be instructed on the elements of voluntary and involuntary
manslaughter.

Uncomfortable with Brown's behavior, the victim and
Richard decided to leave the apartment. As they walked
downstairs, they passed two people ascending the stairs -- a
woman and a man -- later identified as Meredith Weiss and
the defendant, who carried a paper bag. Once the victim and
Richard were outside, Richard could see that the defendant
and Weiss were inside Brown's apartment. The victim and
Richard returned to the apartment and *637 asked Brown,
who had since returned, whether those two individuals were
the people with the drugs. Brown said that they were not, so
the victim and Richard left again and drove around for fifteen
minutes before returning to the apartment, with Richard still
carrying the box containing the scale and the money. Brown,
his demeanor still uneasy, let the brothers into the apartment
and brought them into a bedroom. Brown then left them alone
in the bedroom, telling them that he had to speak with his
landlord.

The defendant also asks that we exercise our extraordinary
authority under G. L. c. 278, § 33E, and order a new
trial or reduce the defendant's conviction to murder in the
second degree, *636 because his conviction of murder in
the first degree is not consonant with justice. We affirm the
defendant's conviction of murder in the first degree and the
denial of his motion for a new trial, and after plenary review of
the entirety of the record, we decline to exercise our authority
under § 33E.
Background. We recite the facts as the jury could have found
them in the light most favorable to the Commonwealth,
reserving certain details for later discussion.

**259 Immediately after Brown left, the defendant entered
the bedroom from an adjoining room. The defendant pointed
a gun at Richard and the victim and asked them where the
money was. The victim raised his hands in the air, palms

In 1976, the victim introduced Richard to a drug dealer,
Brown, who could supply Richard with drugs. Richard's first

4a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Commonwealth v. Martin, 484 Mass. 634 (2020)
144 N.E.3d 254

wide open, and told the defendant to “wait a minute.” The
defendant then shot the victim in the chest from a distance
of approximately five feet. The victim fell backwards, and
Richard ran to him, guiding him to the floor. The defendant
again asked where the money was, and Richard told him
that the money was in their car. The defendant searched the
victim's pockets and left.

he was in California because he had been involved in a
drug deal in Cambridge involving “two white guys” that had
“gone bad.” 5 The defendant told Nesbitt that, while he was
negotiating the drug deal, one of the white guys pulled out a
gun and “tried to stick them up.” He and one of the white guys
wrestled over **260 the gun, and the older white guy got
shot. When Nesbitt returned home the next day, the defendant
and Brown had left.

After the defendant left the bedroom, Richard went out the
window onto the porch and dropped to the ground. He saw
people playing softball at a field across the street, so he
ran over, screaming for help. Richard then led some ball
players back to the apartment, and two individuals performed
cardiopulmonary resuscitation on the victim until emergency
services arrived. The victim died that night of a single gunshot
wound to the left chest.

The defendant remained a fugitive for many years. In
December 1999, he was apprehended by Canadian authorities
in Montreal, where he lived under a different name, and was
brought to Massachusetts to be tried for murder.
Richard Kaufman, a forensic chemist at the State police crime
laboratory, analyzed the victim's jacket for gunpowder residue
in the area where the bullet penetrated the victim's chest
and did not detect any nitrate particles or partially burned
gunpowder particles around the hole in the jacket. He testified
that if the weapon had been fired close to the garment, there
would be gunpowder residue in that area.

Weiss, who was the defendant's girlfriend at the time, testified
that she had driven the defendant to the apartment that
evening. The defendant told her that he needed to go to
Brown's apartment for a drug deal, although Weiss did not
see any drugs that day. The defendant also told Weiss that he
was carrying a gun for protection because he was concerned
about selling drugs to individuals he did not know. Weiss
and the defendant passed two men as they went up the stairs
to Brown's apartment. After Brown spoke privately with the
defendant, the defendant asked Weiss to wait downstairs, so
she returned to the vehicle. She had waited there about ten to
twenty minutes when she heard a bang.

William Duke, a State police ballistician, attended the victim's
autopsy and offered the opinion that, in light of the lack of
evidence of any surrounding tissue damage or powder on the
skin, the wound was not a contact wound, that is, the muzzle
of the weapon was not touching or very close to the victim or
to the victim's *639 clothing when it was fired. Duke further
opined that, if the firearm had been shot within one foot of the
victim, he would expect to see plainly visible gunshot residue
particles on the jacket; if the firearm had been shot within
six inches, he would expect to see a heavier concentration of
gunshot residue with less spread; and if the firearm had been
pressing up against the jacket when it was fired, he would
expect to see an entrance wound almost the size of a golf ball,
with heavy black singe and burn marks plainly visible on the
jacket.

Five minutes later, Brown entered Weiss's car, followed
shortly by the defendant. Both men appeared panicked, and
the defendant told Weiss, “Let's get out of here.” Weiss drove
Brown and the defendant to the apartment in Somerville that
she shared with the defendant and then to Medford, where
they stayed for two nights *638 at a friend's apartment. 3
After learning that the victim had died, Weiss drove the
defendant and Brown to a Boston-area bridge, where the
firearm was thrown into the water, and continued on to the
Port Authority bus station in New York City, where she
dropped off the defendant and Brown. Weiss continued on to
her parents' home in New Jersey, where she was arrested and

Discussion. 1. Ineffective assistance of counsel. The
defendant gives three reasons why he was deprived of his
constitutional right to the effective assistance of counsel.
First, defense counsel in his opening statement told the jury
that Brown would testify that “this was an armed robbery and
not a drug deal,” even though the prosecutor had not expressly
promised to call Brown as a witness, and defense counsel did
not intend to call him; Brown ultimately did not testify at trial.
Second, defense counsel promised in his opening statement
to elicit through cross-examination of the testifying police
officers “how drug deals are handled,” but never elicited that

charged with being an accessory after the fact to murder. 4
Brown and the defendant traveled by bus to California, where
the defendant telephoned his cousin, Douglas Nesbitt, late
one night and asked if they could stay with him. Less than
an hour later, the defendant and Brown appeared at Nesbitt's
apartment. Nesbitt testified that the defendant explained that

5a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Commonwealth v. Martin, 484 Mass. 634 (2020)
144 N.E.3d 254

testimony at trial. Third, defense counsel visited the defendant
only six times before trial and failed adequately to prepare for
trial. We address each claim in turn.
[1] a. Describing Brown's anticipated trial testimony in
opening statement. Before jury empanelment, at a motion in
limine hearing, the judge asked the prosecutor, “Is Mr. Brown
going to be a witness in this case?” The Commonwealth
replied that Brown would be brought into court and that his
attorney had indicated that he would testify if called. But the
prosecutor added, “Strategically, I don't know.... [H]e will be
available to testify. I'm not promising him to the jury.” In his
opening statement, the prosecutor did not promise the jury
that Brown would be a witness or describe evidence that only
Brown would have known. But in defense counsel's opening
statement, he declared:
“You will hear from Gordon Brown during the course of
this case, Gordon Kent Brown. And Gordon Kent Brown
has been in jail for a substantial period of time. And in
1999 he had a parole hearing, and he was turned down
for parole. The police came to see Gordon Kent Brown
shortly after he was turned down for parole and asked
him about [the defendant], asked him if he knew where
he was, wanted information about him, so that they could
arrest [the defendant]. Mr. *640 Brown's response to that
was in the negative initially, but there was a second visit
shortly after the first during **261 which Mr. Brown
began negotiations for [the defendant's] whereabouts. That
is, he wanted money in exchange for bringing information
that he could provide him about [the defendant].

know whether I was going to call Mr. Brown.” The prosecutor
asked that the jury be reinstructed that opening statements
are not evidence; the judge declined to do so. Neither the
Commonwealth nor defense counsel called Brown to testify
during the course of trial.
At the evidentiary hearing on the motion for a new trial
on October 5, 2018, defense counsel testified that he never
intended to call Brown as a witness but expected from his
experience as a defense attorney that the Commonwealth
would call Brown to testify because Brown was on the
witness list, had entered into a “plea agreement” with the
Commonwealth, and was still in custody. Based on his
understanding of the research on opening statements “and the
concepts of primacy and recency in persuading jurors,” he
wanted the jury to know of “Brown's baggage ... from the
get go, and not after he'd been introduced by the prosecutor,”
who, on direct examination, would make “an effort to
diminish the import of what his prior life had been.” He
conceded, “[H]indsight being 20/20, I might not have done
that today.”
*641 [2] [3] “Where, as here, the defendant's ineffective
assistance of counsel claim is based on a tactical or
strategic decision, the test is whether the decision was
‘manifestly unreasonable when made’ ” (quotation omitted).
Commonwealth v. Kolenovic, 471 Mass. 664, 674, 32 N.E.3d
302 (2015), S.C., 478 Mass. 189, 84 N.E.3d 781 (2017),
quoting Commonwealth v. Acevedo, 446 Mass. 435, 442,
845 N.E.2d 274 (2006). In making this determination, we
“focus on the point in time when counsel made the challenged
strategic decision,” not with the benefit of hindsight, and
decide whether “lawyers of ordinary training and skill in the
criminal law” would consider the strategic or tactical decision
to be “competent” (citation omitted). Kolenovic, supra. “The
manifestly unreasonable test, therefore, is essentially a search
for rationality in counsel's strategic decisions, taking into
account all the circumstances known or that should have
been known to counsel in the exercise of his [or her] duty to
provide effective representation to the client and not whether
counsel could have made alternative choices.” Id. at 674-675,
32 N.E.3d 302.

“A year after the first parole hearing there was a second
parole hearing. Mr. Brown who had been turned down for
parole previously wanted to get this parole this time, and,
so, during the course of the parole hearing he agreed to
assist the police, to help the government in this prosecution
against [the defendant] who had by that time been arrested,
and based at least in part upon the representations that he
made, that he was going to help, he was granted parole. At
the time he was granted parole he knew [Richard] Paulsen's
story. He knew that [Richard] Paulsen had told the police
that this was an armed robbery and not a drug deal, and he
knew that he had to agree with that story in order to get
parole. And, so, he did.”

The thrust of the defense, as articulated by defense counsel in
opening statement, was that “this was a drug deal gone bad
during the course of which the gun was flashed, a struggle
ensued, the gun went off accidentally, and [the victim] was
killed.” We conclude that, where defense **262 counsel did
not intend to call Brown as a witness, where the prosecutor

At a sidebar conference after defense counsel's opening
statement, the prosecutor stated, “I just want to be clear. I
never promised the jury Gordon Brown,” and “on the record
I said that I was -- I don't want to say ambivalent, but I didn't

6a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Commonwealth v. Martin, 484 Mass. 634 (2020)
144 N.E.3d 254

earlier that day had told the judge in the presence of defense
counsel that, strategically, he was not sure he would call
Brown, and where the prosecutor did not tell the jury that
Brown would testify or describe any evidence that only
Brown could testify to, it was manifestly unreasonable to tell
the jury that Brown would testify that what had occurred here
was an armed robbery. To be sure, if Brown were to have
testified, it would have been reasonable for defense counsel to
discuss Brown's anticipated testimony in opening statement
and his motivation for giving that testimony with the goal
of influencing the jury's first impression of the credibility of
that testimony. But where the prosecutor had told the judge
that he had yet to decide whether to call Brown, defense
counsel relied on an informed guess as to whether Brown
actually would testify. The risk of telling the jury that Brown
would testify and corroborate Richard's version of events far
exceeded the benefit of influencing the jury's first impression
of Brown if he were to testify. No competent attorney would
have taken this risk and made this choice.

counsel in opening statement to have told the jury that Brown
would characterize what happened as an armed robbery, but
it reasonably could not have influenced the jury in reaching
their verdict.
[5] b. Promising to elicit from testifying police officers about
“how drug deals are handled.” In his opening statement,
defense counsel told the jury:

[4] Counsel's ineffective assistance, however, requires a new
trial only if it created a substantial likelihood of a miscarriage
of *642 justice, that is, only if it was reasonably likely to
have influenced the jury's conclusion. See Commonwealth
v. Field, 477 Mass. 553, 556, 79 N.E.3d 1037 (2017);
Commonwealth v. Brown, 462 Mass. 620, 630, 970 N.E.2d
306 (2012). We conclude that it was not reasonably likely
in this case. The overwhelming evidence at trial was that
Richard and the victim thought this was to be a drug deal, but
the defendant and Brown knew it was to be a drug “rip-off” (to
steal the cash), i.e., an armed robbery. The only evidence that
supported the defense theory that Richard or the victim had
brought the firearm to the drug deal to conduct their own
drug rip-off to steal the drugs and that the victim was killed
during a struggle over the gun came from the defendant's
description of events to Nesbitt. That self-serving story, told
to a distant cousin whose help the defendant sought while
“on the lam,” is inconsistent with Richard's testimony (and
with his conduct immediately after the shooting), inconsistent
with Weiss's testimony that the defendant brought a gun to
the apartment, and inconsistent with the forensic evidence,
which suggests that this was not a contact wound fired at
close range, as one would expect if it were an accidental
shooting during a struggle for the gun. Defense counsel's
characterization of Brown's anticipated testimony was never
mentioned again during the presentation of evidence at trial
or in closing argument. In short, where the prosecutor had
not decided to call Brown as a witness and defense counsel
did not intend to, it was manifestly unreasonable for defense

“There's an alternative scenario that we would suggest to
you that this was in fact a drug deal ... and through the crossexamination of the police officers we suggest that we will
show you how drug deals are handled. The drugs and the
money are not generally in the same place at the same time.
And in this circumstance that a sample of drugs was taken
to the premises, a gun was carried in order to protect the
individual from **263 people he didn't know that were
supposedly buying from him, that this was a drug deal
gone bad during the course of which the gun was flashed,
a struggle ensued, the gun went off accidentally, and [the
victim] was killed.”
*643 The defendant correctly notes that, at trial, defense
counsel never did elicit during his cross-examination of the
testifying police officers “how drug deals are handled,” or
that “[t]he drugs and the money are not generally in the
same place at the same time” during a typical drug deal. Nor,
pragmatically, could defense counsel have expected to elicit
such testimony, where none of the testifying police officers
had substantial experience investigating drug deals. But we
need not dwell long on this claim of ineffective assistance
because, in the context of this case, it amounts to nothing.
The Commonwealth's theory of this case, amply supported
by Richard's testimony, was that this armed robbery occurred
during what Richard and the victim intended to be a drug
deal. Richard testified that he and the victim came to the
apartment to buy drugs, and the defendant attempted to rob
them of the money they had brought to pay for the drugs.
There was no need for defense counsel to cross-examine the
police officers to elicit from them that this was meant to be
a drug deal, because that was never in dispute. What was
disputed is whether the defendant sought to negotiate a drug
deal, as the defendant told Nesbitt in California, or whether
the defendant simply used Richard and the victim's belief
that they were going to purchase drugs from Brown as an
opportunity for an armed robbery, as Richard testified. There
is no risk that this assertion in opening statement, or defense
counsel's failure to elicit the promised testimony, in any way
influenced the jury's verdict.

7a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Commonwealth v. Martin, 484 Mass. 634 (2020)
144 N.E.3d 254

[6] c. Defense counsel's failure to visit the defendant in
jail more than six times before trial. Between the date of
arraignment and the commencement of trial on May 8, 2001,
defense counsel visited the defendant six times while he was
in jail awaiting trial: on January 12, 2000; March 23, 2000;
June 17, 2000; April 26, 2001; May 1, 2001; and May 2, 2001.
The defendant also contends that he received discovery from
defense counsel that counsel and the defendant never had
the opportunity to discuss; that they did not agree about trial
strategy; that he tried to telephone defense counsel numerous
times between January 2000 and April 26, 2001, but was
never able to speak with him; and that they never engaged in
any written dialogue about the case. The defendant, however,
has failed to articulate how his defense would have been
materially different if defense counsel had visited him more
often or been more responsive to his attempts to contact
defense counsel. At the close of the evidence at trial, the judge
*644 asked the defendant if he felt satisfied with defense
counsel's representation of him; the defendant answered
“yes.” There is nothing in the defendant's briefs and nothing
we can discern from the record that suggests that more or
better communication between the defendant and defense
counsel would have yielded anything likely to influence the
jury's verdict in this case.
[7] 2. Retroactive application of Brown. The defendant
argues that we should extend the reach of our holding in
Brown to his case, even though we limited that holding to
cases tried after the opinion was issued. In Brown, 477 Mass.
at 807, 81 N.E.3d 1173, we revised our common law of
murder by declaring that, “in trials that commence[d] after the
date of the opinion in [that] case,” felony-murder would no
longer be an independent theory of liability for murder but
simply an aggravating **264 element under G. L. c. 265,
§ 1, permitting a verdict of murder in the first degree where
the jury found one of the three prongs of malice but did not
find deliberate premeditation or extreme atrocity or cruelty.
In doing so, we abandoned “the fiction of constructive malice
-- that where a killing occurs in the commission of a felony,
the intent to commit the felony is sufficient alone to establish
malice.” Id. at 825, 81 N.E.3d 1173 (Gants, C.J., concurring).
The defendant contends that, as a matter of due process, equal
protection, and basic fairness, we should extend our holding
in Brown to his case, even though it was tried before our
opinion in Brown and the appeal was pending when Brown
was decided. We have declined to do so in other cases. See,
e.g., Commonwealth v. Bin, 480 Mass. 665, 681, 107 N.E.3d
1146 (2018); Commonwealth v. Phap Buth, 480 Mass. 113,

120, 101 N.E.3d 925, cert. denied, ––– U.S. ––––, 139 S. Ct.
607, 202 L.Ed.2d 439 (2018). We decline to do so here.
We made clear in Brown that “[f]elony-murder is a commonlaw crime”; we determine its elements. Brown, 477 Mass. at
822, 81 N.E.3d 1173. We declared that, in future trials, the
element of malice would no longer be satisfied simply by
proof of intent to commit the underlying crime: one of the
three prongs of malice would have to be proved. Id. at 807, 81
N.E.3d 1173. This was not a clarification of existing common
law; it constituted a change to our common law. Nor was it
a change to our law of criminal procedure; it was a change
to our substantive criminal law. We made equally clear that
our earlier felony-murder rule, which substituted the intent
to commit the underlying felony for the malice required for
murder, was not unconstitutional. Id. at 823, 81 N.E.3d 1173.
Our decision in Brown therefore did not announce a new
constitutional rule. Id.
Because Brown neither established a new Federal
constitutional rule nor a new Federal rule of criminal
procedure, the United *645 States Supreme Court precedent
on which the defendant relies is inapplicable. See Griffith
v. Kentucky, 479 U.S. 314, 328, 107 S.Ct. 708, 93 L.Ed.2d
649 (1987) (Federal Constitution requires Federal and State
courts to retroactively apply new Federal constitutional rules
of criminal procedure to direct appeals from convictions);
Commonwealth v. Waters, 400 Mass. 1006, 1007, 511 N.E.2d
356 (1987) (“Griffith does not require this court to give
retroactive application to rules that are not based on the
Federal Constitution”). Nor do Supreme Court precedents that
provide that subsequent clarifications of existing substantive
criminal law have retroactive effect apply here, because
Brown clearly involved a change in the common law of
felony-murder and not a mere clarification. See Fiore v.
White, 531 U.S. 225, 228-229, 121 S.Ct. 712, 148 L.Ed.2d
629 (2001) (because Pennsylvania Supreme Court “clarified”
that crime of operating hazardous waste facility without
permit did not apply to someone who had permit but deviated
from its terms, defendant's conviction ran afoul of due process
because defendant had permit and therefore never violated
statute). See also Bunkley v. Florida, 538 U.S. 835, 840, 123
S.Ct. 2020, 155 L.Ed.2d 1046 (2003) (“[t]he proper question
under Fiore is not whether the law has changed,” but rather
what law required at time of defendant's conviction). Thus,
where we revise our substantive common law of murder,
we are free to declare that our new substantive law shall be
applied prospectively, much like the Legislature may do when
it revises substantive criminal statutes. See Commonwealth

8a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

Commonwealth v. Martin, 484 Mass. 634 (2020)
144 N.E.3d 254

[9] Although the Commonwealth proceeded solely on the
theory of felony-murder, the judge, in accordance with
our guidance at the time of trial, also instructed the jury
regarding murder in the second degree, setting forth the

v. Dagley, 442 Mass. 713, 721 n.10, 816 N.E.2d 527 (2004),
cert. denied, 544 U.S. 930, 125 S.Ct. 1668, 161 L.Ed.2d
494 (2005) (“When announcing a new common-law **265
rule ... there is no constitutional requirement that the new
rule or new interpretation be applied retroactively, and we are
therefore free to determine whether it should be applied only
prospectively”). Cf. Commonwealth v. Galvin, 466 Mass.
286, 290, 995 N.E.2d 27 (2013), quoting G. L. c. 4, § 6,
Second (“a newly enacted [penal] statute is presumptively
prospective, and ‘[t]he repeal of a statute shall not affect any
punishment, penalty or forfeiture incurred before the repeal
takes effect’ ”).

three prongs of malice. 7 Where an *647 instruction was
to be **266 given regarding murder in the second degree
based on a finding of malice, defense counsel asked for
jury instructions regarding the lesser included offenses of
voluntary and involuntary manslaughter. “A manslaughter
instruction is required if the evidence, considered in the light
most favorable to a defendant, would permit a verdict of
manslaughter ....” Commonwealth v. Pina, 481 Mass. 413,
422, 116 N.E.3d 575 (2019). Here, viewing the evidence
in that most favorable light, a reasonable jury could have
credited the defendant's description of what occurred as
related to Nesbitt and concluded that the killing occurred
after Richard or the victim displayed a gun while they were
negotiating a drug deal and the victim either was accidentally
killed during the struggle or shot in a heat of passion arising
from reasonable provocation or sudden combat. Therefore,
the judge erred in declining the defendant's request for these
instructions.

In fact, this case illustrates the wisdom of prospective
application of our new common law of felony-murder. The
Commonwealth chose here to proceed on only one theory of
murder in the first degree, felony-murder, which at the time
of trial did not require the jury to find one of the three prongs
of malice -- that is, that the defendant shot the victim with
an intent to kill, or with an intent to cause grievous bodily
harm, or intended to do an act that, in the circumstances
known to the defendant, a reasonable *646 person would
have known created a plain and strong likelihood that death
would result. See Model Jury Instructions on Homicide 15-19
(1999). Our decision in Brown would have permitted the
Commonwealth to obtain a verdict of murder in the first
degree on the theory of felony-murder, but only if the jury
were to find one of the three prongs of malice. See Model Jury
Instructions on Homicide 59-60 (2018). If we had applied our
new common law of felony-murder retroactively, we would
have been required to order a new trial in this case because
the jury were not instructed that they had to find one of the
three prongs of malice in order to find the defendant guilty of
felony-murder in the first degree. But this would have been
unfair to the Commonwealth because, had the jury been so
instructed, it likely would have found that the defendant acted
with malice in shooting the victim, and that he did so during
the commission of an attempted armed robbery, which would
have resulted in a verdict of murder in the first degree on the

[10] [11] Where the defendant requested such instructions
and objected to their absence, we must determine whether
the error was prejudicial. Pina, 481 Mass. at 422, 116 N.E.3d
575. “An error is not prejudicial only if the Commonwealth
can show ‘with fair assurance ... that the judgment was
not substantially swayed’ by it.” Commonwealth v. Rosado,
428 Mass. 76, 79, 696 N.E.2d 943 (1998), quoting
Commonwealth v. Flebotte, 417 Mass. 348, 353, 630 N.E.2d
265 (1994). We conclude, with fair assurance, that the
defendant suffered no prejudice from this error.

theory of felony-murder. 6
[8] 3. Request for jury instruction on voluntary and
involuntary manslaughter. The defendant argues that the
judge committed prejudicial error in declining the defendant's
request that the jury be instructed on voluntary and
involuntary manslaughter. We agree that the judge erred, but
we conclude that the error was not prejudicial in the context
of his other instructions.

[12] The judge instructed the jury that, to find the defendant
guilty of murder in the first degree on the theory of felonymurder, they must find beyond a reasonable doubt that the
defendant brought the gun to the room in the apartment
where the brothers were waiting, took it and displayed it in
a threatening way, and did so with the intent to rob Richard
and the victim of the money they had brought. The judge also
instructed that, to find the defendant guilty of murder in the
second degree, they must find that he came into the room
with a gun and intentionally pointed it at one of the brothers.
The judge further instructed that, to find the defendant guilty
of murder in the first or second degree, the jury must find
beyond a reasonable doubt that “there was an intentional act,
that [the defendant] shot the gun, that it wasn't an accident,”
and “that he pulled the trigger intentionally.” 8 As a result,

9a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

Commonwealth v. Martin, 484 Mass. 634 (2020)
144 N.E.3d 254

if the jury had a reasonable doubt whether the events had
occurred as described by *648 the defendant to Nesbitt
(which itself is extraordinarily unlikely), they were required
to find the defendant not guilty. In view of these instructions
and the feeble evidence supporting a finding of manslaughter,
it is plain that the defendant was not prejudiced **267 by
the failure to instruct the jury regarding the law governing
voluntary and involuntary manslaughter.

“A contrary rule has an obvious potential to undermine
the *649 policy of finality of criminal convictions. It
is likely that in almost every case where a defendant
has been convicted of felony-murder in the first degree
predicated on a felony punishable by life imprisonment,
an argument can later be made that the trial evidence also
supported the existence of one or more uncharged felonies
not punishable by life imprisonment, and that therefore the
jury should have been instructed on felony-murder in the
second degree. Limiting the availability of such a claim
to cases where the felony later advanced as presenting a
basis for a charge of felony-murder in the second degree
was the subject of a separate indictment may strike an
appropriate balance. The existence of the indictment puts
the Commonwealth (as well as the trial judge) on notice
that at least there is a theoretical possibility of conviction
of felony-murder in the second degree.”

4. Review under G. L. c. 278, § 33E. As part of our plenary
review, we have examined the record and conclude that a
conviction of murder in the first degree is consonant with
justice. We therefore decline the defendant's request to order
a new trial or to reduce the verdict to murder in the second
degree.
[13] We specifically address only one claim of error that was
not raised in the briefs but emerged in oral argument and was
argued by the defendant in a letter submitted under Mass. R.
A. P. 16 (l), as amended, 386 Mass. 1247 (1982): that the
judge erred in failing to give an instruction on felony-murder
in the second degree, based on the uncharged offenses of (1)
conspiracy to violate the drug laws, G. L. c. 94C, § 40; (2)
unlicensed carrying of a firearm, G. L. c. 269, § 10 (a); and
(3) armed assault with intent to rob, G. L. c. 265, § 18.
[14] We have previously held “that the felony on which a
charge of felony-murder is premised may be uncharged, so
long as the evidence supports it.” Commonwealth v. Stokes,
460 Mass. 311, 315, 951 N.E.2d 48 (2011). The defendant is
correct that the evidence would support at least the last two
of the three uncharged felonies he identifies. “But where the
felony later advanced by a defendant as the predicate for an
instruction on felony-murder in the second degree is not itself
the subject of a separate indictment, no error occurs if the trial
judge does not charge the jury on it even though there may be
sufficient evidence supporting such a charge -- at least where,
as here, no party requested such an instruction or even brought
the issue to the judge's attention at trial.” Id. We reasoned:

Id. at 316, 951 N.E.2d 48. Applying that reasoning here,
we conclude that there was no error. Nor do we find a
substantial likelihood of a miscarriage of justice arising from
the absence of an instruction regarding felony-murder in
the second degree premised on other felonies that were not
punishable by life in prison. The overwhelming evidence
in this case was that the defendant committed an attempted
armed robbery.
Conclusion. We affirm the defendant's conviction of felonymurder in the first degree and the denial of his motion for a
new trial.
So ordered.
All Citations
484 Mass. 634, 144 N.E.3d 254

Footnotes
1
2
3

To avoid confusion, we refer to Richard by his first name and Edward as the victim.
Richard testified that he could not recall which of the two transactions involved hashish and which involved
marijuana.
Weiss testified that she could not recall if Brown was still with them when she and the defendant went to
Medford.

10a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Commonwealth v. Martin, 484 Mass. 634 (2020)
144 N.E.3d 254

4

5
6
7

8

This charge was dismissed without prejudice in 1977. In 1982 Weiss entered into an agreement with the
Commonwealth in which the Commonwealth agreed not to renew charges against her if she agreed to testify
against Brown at his 1982 trial and against the defendant if and when he was arrested and tried.
The victim and Richard are Caucasian; the defendant is black.
The jury, had they been so instructed, might also have found the defendant guilty of murder in the first degree
on the theory of deliberate premeditation.
In Commonwealth v. Brown, 392 Mass. 632, 645, 467 N.E.2d 188 (1984), an appeal from a conviction of
murder in the first degree on the theory of felony-murder, we held that “G. L. c. 265, § 1, requires a trial
judge to instruct on murder in the first and second degrees if there is evidence of murder in the first degree,
even though there appears to be no hypothesis in the evidence to support a verdict of murder in the second
degree.” See Commonwealth v. Dickerson, 372 Mass. 783, 795-796, 364 N.E.2d 1052 (1977). Where the
judge had denied that defendant's request for an instruction on murder in the second degree, we exercised
our authority under G. L. c. 278, § 33E, to direct the entry of a verdict of murder in the second degree. Brown,
supra at 643-644, 467 N.E.2d 188. However, in Commonwealth v. Paulding, 438 Mass. 1, 10, 777 N.E.2d 135
(2002), decided one year after the trial in the instant case, we changed course and held that a judge need not
instruct the jury on murder in the second degree where the Commonwealth proceeds only on the theory of
felony-murder and there is no evidence of malice that would support a verdict of murder in the second degree.
With respect to the charge of murder in the first degree on the theory of felony-murder, the accident instruction
was far more favorable to the defendant than he was entitled to under the law. See Commonwealth v. Brown,
477 Mass. 805, 831, 81 N.E.3d 1173 (2017), cert. denied, ––– U.S. ––––, 139 S. Ct. 54, 202 L.Ed.2d 41
(2018) (Gants, C.J., concurring) (under felony-murder rule “a defendant who participates in an armed robbery
is guilty of felony-murder in the first degree if the defendant or an accomplice commits any act that results in
death, even if the act is accidental and unintended”); Commonwealth v. Evans, 390 Mass. 144, 151–152, 454
N.E.2d 458 (1983) (“A defendant who kills a victim in the commission or attempted commission of a robbery,
while the defendant is armed with a gun, is guilty of murder by application of the felony-murder rule. ... The
fact that, according to the defendant, the gun was discharged accidently is of no consequence”).

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

